          Office of Inspector General




October 16, 2006

JERRY D. LANE
VICE PRESIDENT, CAPITAL METRO AREA

SUBJECT: Management Advisory – Delivery and Retail Standard Operating
         Procedures – Capital Metro Area (Report Number DR-MA-07-001)

This report presents the results of our review of the implementation of Delivery and
Retail Standard Operating Procedures (SOP) in the Capital Metro Area (Project Number
06XG016DR003). Our overall objective was to assess implementation of Delivery and
Retail SOP in the Capital Metro Area. This is one in a series of reports on Delivery and
Retail operations issued under the Value Proposition Agreement between the Vice
President, Delivery and Retail, and the U.S. Postal Service Office of Inspector General
(OIG) Delivery and Retail directorate. The information in this report will be included in a
nationwide capping report assessing implementation of Delivery and Retail SOP.

The Capital Metro Area, selected districts and delivery and retail unit officials
implemented the Delivery and Retail SOP for city and rural delivery and Function 4
(customer service) operations. Implementation included training supervisors and
managers, developing action steps for “vital few” units, and outlining future plans to
complete remaining reviews and certifications by the end of fiscal year 2006. Officials
also certified delivery and retail units under Morning Standard Operating Procedures
(AMSOP) and Rural Delivery Standard Operating Procedures (RDSOP) and conducted
Function 4 reviews. Based on our review of the city and rural delivery and Function 4
SOP, the Capital Metro Area implemented each component of the SOP except for
selected aspects of AMSOP, Delivery Point Sequencing (DPS), matching workhours to
workload, RDSOP, and Retail Data Mart Window Operations Survey (RDM WOS).
During our review, officials implemented corrective actions to improve the AMSOP,
DPS, and RDSOP.

Unit officials did not always adhere to policies to adequately match workhours to
workload. As a result, unit officials’ ability to monitor carrier street performance and
customer service issues may be impacted. In addition, supervisors did not effectively
consult with carriers and correct performance issues to better manage overtime hours.
Finally, supervisors were unable to determine whether the volume for parcels and
accountable packages increased or decreased each day on a carrier’s route.
The RDM WOS component needs improvement because unit officials were not using
the RDM WOS to determine the proper staff scheduling needed to manage retail
window operations. As a result, unit management cannot adequately schedule window
coverage to meet customer demands, and area and district officials cannot establish
realistic annual work budget goals at the area and district levels.

Finally, area officials were continuing to address the challenges associated with the
“vital few” performers, which include developing action steps for units identified as “vital
few.”

We recommended the Vice President, Capital Metro Area, direct the Capital and
Baltimore District Managers to ensure unit officials match workhours to workload by
updating route base information when changes occur; completing Postal Service
Forms 1017-B, Unauthorized Overtime Record, to document unauthorized overtime;
and providing current and readily available route base information for parcels and
accountable mail. In addition, we recommended the Vice President, Capital Metro
Area, direct the Capital and Baltimore District Managers to ensure unit officials use the
RDM WOS to determine staffing required to meet customer demands during peak
hours.

Management agreed with our findings and recommendations and has taken or planned
corrective actions to address issues identified in this report. Management’s comments
and our evaluation of these comments are included in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Rita F. Oliver,
Director, Delivery and Retail, or me at (703) 248-2100.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments
cc: Patrick Donahoe
    William P. Galligan
    Kathy Ainsworth
    Joseph A. Martin
    Timothy C. Haney
    W. C. Miner
    Steven R. Phelps
Delivery and Retail Standard Operating Procedures –                    DR-MA-07-001
 Capital Metro Area


                                   TABLE OF CONTENTS

 Executive Summary                                                          i

 Part I

 Introduction                                                              1

     Background                                                            1
     Objective, Scope, and Methodology                                     3
     Prior Audit Coverage                                                  4

 Part II

 Results                                                                   5

      Implementation of Standard Operating Procedures in the Capital       5
      Metro Area

      Morning Standard Operating Procedures                                7

      Delivery Point Sequencing                                            9

      Matching Workhours to Workload                                       11
      Recommendations                                                      12
      Management’s Comments                                                12
      Evaluation of Management’s Comments                                  14

      Rural Delivery Standard Operating Procedures                         15

      Retail Data Mart Window Operations Survey                            16
      Recommendation                                                       16
      Management’s Comments                                                17
      Evaluation of Management’s Comments                                  17

      “Vital Few” List                                                     18

 Appendix A. Prior Audit Coverage                                          19

 Appendix B. Capital Metro Area Implementation of Delivery                 22
             and Retail Standard Operating Procedures

 Appendix C. Management’s Comments                                         23
Delivery and Retail Standard Operating Procedures –                                DR-MA-07-001
 Capital Metro Area


                                   EXECUTIVE SUMMARY
 Introduction                   This report presents the results of our review of the
                                implementation of Delivery and Retail Standard Operating
                                Procedures (SOP) in the Capital Metro Area (Project
                                Number 06XG016DR003). Our overall objective was to
                                assess implementation of Delivery and Retail SOP in this
                                area.

 Results in Brief               The Capital Metro Area and officials in selected districts and
                                delivery and retail units implemented the Delivery and Retail
                                SOP for city and rural delivery and retail operations.
                                Implementation included training supervisors and
                                managers, developing action steps for “vital few” units and
                                outlining future plans to complete remaining reviews and
                                certifications by the end of fiscal year 2006. Officials also
                                certified delivery and retail units under Morning Standard
                                Operating and Rural Delivery Standard Operating
                                Procedures (AMSOP and RDSOP, respectively) and
                                conducted Function 4 (customer service) reviews.

                                Based on our review of the SOP for city and rural delivery
                                and Function 4 operations, the Capital Metro Area
                                implemented each component except for AMSOP, Delivery
                                Point Sequencing, matching workhours to workload,
                                RDSOP and Retail Data Mart Window Operations Survey
                                (RDM WOS). Officials implemented corrective actions
                                during our review to improve the AMSOP, DPS and
                                RDSOP.

                                Unit officials did not always adhere to policies to adequately
                                match workhours to workload. As a result, unit officials’
                                ability to monitor carrier street performance and customer
                                service issues may be impacted. In addition, supervisors
                                did not effectively consult with carriers and correct their
                                performance issues to better manage overtime hours.
                                Finally, supervisors were unable to determine whether the
                                volume for parcels and accountable packages increased or
                                decreased each day on a carrier’s route.




                                                      i
Delivery and Retail Standard Operating Procedures –                                 DR-MA-07-001
 Capital Metro Area



                                The RDM WOS component needs improvement because
                                unit officials were not using the RDM WOS to determine if
                                the staff needed to manage retail window operations. As a
                                result, unit management cannot adequately schedule
                                window coverage to meet customer demands, and area and
                                district officials cannot establish realistic annual work budget
                                goals at the area and district levels.

                                Finally, area officials were continuing to address the
                                challenges associated with the “vital few” performers, which
                                include developing action steps for units identified as “vital
                                few.”

 Summary of                     We recommended the Vice President, Capital Metro Area,
 Recommendations                direct the Capital and Baltimore District Managers to ensure
                                unit officials match workhours to workload by updating route
                                base information when changes occur; completing Postal
                                Service Forms 1017-B, Unauthorized Overtime Record, to
                                document unauthorized overtime; and providing current and
                                readily available route base information for parcels and
                                accountable mail.

                                In addition, we recommended the Vice President, Capital
                                Metro Area, direct the Capital and Baltimore District
                                Managers to ensure that unit officials use the RDM WOS to
                                determine staffing required to meet customer demands
                                during peak hours.

 Summary of                     Management agreed with the findings and
 Management’s                   recommendations. However, they did not agree with the
 Comments                       statement that all components of the SOP were
                                implemented except for AMSOP, Delivery Point
                                Sequencing, matching workhours to workload, RDSOP and
                                Retail Data Mart Window Operations Survey (RDM WOS).
                                Management agreed however, that their concerns were
                                addressed in Appendix B. Capital and Baltimore District
                                management stated all offices have received the proper
                                training for SOP implementation. Capital and Baltimore
                                District management gave details of planned oversight
                                processes to ensure that data is properly maintained and
                                accurate in the Delivery Operations Information System.
                                Management in both districts has required stricter oversight
                                to ensure appropriate use of Postal Service control forms,
                                such as PS Form 1017B, Unauthorized Use of Overtime.


                                                      ii
Delivery and Retail Standard Operating Procedures –                              DR-MA-07-001
 Capital Metro Area


                                Finally, management in both districts has implemented
                                follow-up measures to ensure that unit managers have
                                received training on RDM WOS and are properly using this
                                tool to staff retail operations. Management’s comments, in
                                their entirety, are included in Appendix C.

 Overall Evaluation of          Management’s comments are responsive to the findings
 Management’s                   and recommendations, and their actions taken or planned
 Comments                       should correct issues identified in the report.




                                                      iii
Delivery and Retail Standard Operating Procedures –                                                     DR-MA-07-001
 Capital Metro Area


                                              INTRODUCTION
    Background                      Each day the U.S. Postal Service receives and delivers over
                                    700 million pieces of mail. The Postal Service delivers mail
                                    to 144 million city and rural addresses across a network of
                                    around 37,000 post offices and retail outlets. To receive
                                    and deliver the mail, the Postal Service has an annual field
                                    budget of approximately $60 billion of which roughly
                                    51 percent is used for delivery and retail operations. Annual
                                    salary and benefits in fiscal year (FY) 2006 for rural and city
                                    carriers totaled about $22 billion and around $8 billion for
                                    Function 4 (customer service) operations. The Capital
                                    Metro Area’s FY 2006 budget was $779 million for city
                                    delivery operations, $246 million for rural delivery
                                    operations, and $404 million for Function 41 operations.
                                    The Capital Metro Area is responsible for four districts2 and
                                    services approximately 1,308 delivery and retail units.3

                                    To ensure the efficient use of resources, the Vice President,
                                    Delivery and Retail, issued a letter on September 30, 2005,
                                    stating that all delivery and retail units will officially
                                    implement the Standard Operating Procedures (SOP)
                                    beginning in FY 2006 to establish standard practices for
                                    managing all delivery and retail functions. In
                                    November 2005, Postal Service senior management
                                    officials requested audit assistance from the U.S. Postal
                                    Service Office of Inspector General (OIG) to assess
                                    implementation of the SOP and determine how the area is
                                    monitoring the units on the “vital few”4 list. In response to
                                    the request, the OIG began its nationwide review of
                                    implementation of the SOP in January 2006.

                                    The SOP consists of procedures to manage city and rural
                                    delivery and Function 4 operations. Postal Service officials
                                    must implement the SOP consistently and establish a
                                    review process to validate that the programs are operable.
                                    Officials must also take appropriate responsibility for

1
  Function 4 operations include customer service activities for nonsupervisory hours of employees at post office
windows, vending equipment services, and miscellaneous administrative and Central Forwarding System operations.
2
  In July 2006, Capital Metro Operations assumed responsibility for three other districts (Greater South Carolina, Mid-
Carolinas, and Greensboro). However, the scope of this review only included the Baltimore, Capital, Northern
Virginia, and Richmond Districts.
3
  Some of these units do not have all three components: city delivery, rural delivery, and retail operations. Therefore,
they do not have budgeted workhours for all three operations.
4
  “Vital few” units have the largest opportunity for improvement in city and rural delivery and Function 4 operations
and require specific management actions.



                                                           1
Delivery and Retail Standard Operating Procedures –                                                       DR-MA-07-001
 Capital Metro Area


                                     developing plans that will assure that SOP are understood
                                     and functional.

                                     Morning Standard Operating Procedures (AMSOP) are an
                                     important component of city delivery SOP. AMSOP
                                     standardizes daily city carrier functions to align actual
                                     workhours to base workhours. The FY 2006 goal was to
                                     certify5 all level 226 and above Delivery Operations
                                     Information System (DOIS) sites by September 30, 2006.

                                     For rural delivery, the Rural Delivery Standard Operating
                                     Procedures (RDSOP) standardizes daily rural carrier
                                     functions to align actual workhours to standard workhours.
                                     The FY 2006 goal was to certify7 75 percent of units with 10
                                     or more rural routes and those units identified as “vital few.”

                                     The Function 4 operations goal is to provide a standardized
                                     and comprehensive structure for the development of an
                                     integrated review cycle that continually identifies and
                                     quantifies savings opportunities. In addition, management
                                     should conduct Function 4 Business Reviews8 to identify
                                     units with the largest opportunity for workhour
                                     improvements.

                                     A key component of the SOP is the identification of “vital
                                     few” units. These units have the largest opportunity for
                                     improvement in city and rural delivery and Function 4
                                     operations and require specific management actions.
                                     Postal Service Headquarters provides area officials with the
                                     “vital few” list quarterly based on the performance of the
                                     previous quarter. The area monitors the “vital few” units
                                     and develops action plans to correct their performance
                                     issues in city and rural delivery and Function 4 operations.


5
  District program managers conduct a certification audit of a city delivery unit’s operations to determine if supervisors
are matching workhours to workload, time attendance reports, office configuration and use of authorized overtime.
Units must achieve a score of 95 or greater for certification.
6
  A level 22 post office is a grade level assigned to the postmaster of a post office according to the total number of
workload service credits attributed to the facility. The credits are based on a combination of the responsibilities of the
postmaster, the number of employees, the size of the facility, and various operations performed within each post
office.
7
  District program managers conduct a formalized rural management review focusing on improving efficiency in an
evaluated workload environment to more closely align actual to standard hours, reduce overtime, and reduce
auxiliary assistance hours. Units must achieve a score of 85 or greater for certification.
8
  The on-site review focuses on improving efficiency in an evaluated workload environment, which will result in closer
alignment of actual hours to budgeted hours. Function 4 SOP teams complete the on-site reviews and an Integrated
Operations Business Plan Committee provides critical support to ensure attainment of major organizational targets.




                                                            2
Delivery and Retail Standard Operating Procedures –                                              DR-MA-07-001
 Capital Metro Area



                                  Postal Service Headquarters provided delivery and retail
                                  standardization training to Area Managers of Delivery
                                  Support Programs on September 8 and 9, 2005. In
                                  addition, Postal Service Headquarters issued a
                                  memorandum on October 13, 2005, to each area outlining
                                  the area’s responsibility for training managers on the SOP.
                                  Each area was responsible for training districts by
                                  October 31, 2005. The districts were responsible for
                                  completing training for all levels of management by
                                  November 15, 2005. Further, Postal Service Headquarters
                                  requested that each area establish a review process to
                                  validate whether the SOP were adopted to ensure
                                  consistent implementation. Finally, Postal Service
                                  Headquarters informed area officials that the “vital few” list
                                  requires their attention and monitoring, which includes
                                  action plans to correct performance issues in city and rural
                                  delivery and Function 4 operations.

    Objective, Scope, and         Our overall objective was to assess implementation of
    Methodology                   Delivery and Retail SOP in the Capital Metro Area.
                                  Specifically, we determined whether Capital Metro Area
                                  officials have implemented SOP in city and rural delivery
                                  and Function 4 operations. The scope of this review
                                  focused on whether area officials implemented the SOP at
                                  the area level and at selected district and delivery and retail
                                  unit locations within the area. We did not determine the
                                  effectiveness of the implemented SOP at this time, but plan
                                  to perform future reviews and identify opportunities to
                                  increase revenue, reduce costs, and improve customer
                                  service.

                                  We visited Postal Service Headquarters and the Capital
                                  Metro Area to interview management officials and obtain
                                  performance data. We judgmentally selected for review the
                                  Capital and Baltimore Districts and the XXXXXXXX,
                                  XXXXXXX, XXXXXX, and XXXXXX delivery and retail units
                                  based on discussions with Postal Service officials and
                                  review of FY 2006 delivery and retail performance data for
                                  week 10.9 We reviewed and analyzed performance data
                                  obtained from Postal Service systems from October 2005
                                  through June 2006 and discussed the results with Postal

9
  Week 10 performance data was only for that specific week. The weekly performance data roll-up processes began
in week 14, with year-to-date information available beginning with week 19.



                                                       3
Delivery and Retail Standard Operating Procedures –                                               DR-MA-07-001
 Capital Metro Area


                                  Service officials.10 We relied on data from these systems to
                                  conduct interviews and analysis. However, we did not
                                  directly audit the systems, but discussed with Postal Service
                                  officials the relevance of the data to delivery and retail
                                  performance during our fieldwork.

                                  We conducted this review from January through
                                  October 2006 in accordance with President’s Council on
                                  Integrity and Efficiency, Quality Standards for Inspections.
                                  We discussed our observations and conclusions with
                                  management officials and included their comments where
                                  appropriate.

 Prior Audit Coverage             The OIG has issued 12 audit reports related to delivery and
                                  retail operations. While none of these reports are directly
                                  related to our objective, they do identify opportunities to
                                  improve management of delivery and retail operations
                                  issues. The details of the reports are included in
                                  Appendix A.




10
  During our review timeframe, we analyzed performance data roll-up information for week 19 year-to-date and week
34 year-to-date.



                                                        4
Delivery and Retail Standard Operating Procedures –                                                  DR-MA-07-001
 Capital Metro Area


                                                  RESULTS
 Implementation of                 The Capital Metro Area and officials in selected districts and
 Standard Operating                delivery and retail units implemented the SOP in city and
 Procedures in the                 rural delivery and Function 4 operations which included:
 Capital Metro Area
                                        •   Completing SOP training between October and
                                            November 2005 for supervisors and managers
                                            responsible for city and rural delivery and Function 4
                                            operations at the district and unit levels.11

                                        •   Developing approved action steps for “vital few”
                                            units.

                                        •   Outlining future plans to complete reviews on the
                                            remaining AMSOP, RDSOP, and Function 4
                                            Business Review locations by September 30, 2006.

                                   Capital Metro Area officials certified 6 percent (5 of 78) of
                                   their level 22 and above DOIS sites under AMSOP.12
                                   During FY 2006, week 34 year-to-date, the area city delivery
                                   office hours (percent to standard) exceeded standard
                                   workhours by 105.31 percent. This was a decrease from
                                   week 19 year-to-date, when the office hours exceeded the
                                   standard hours by 105.81 percent. During this same period,
                                   the deliveries per hour percentage exceeded the same
                                   period last year percentage by 1.58 percent. This was an
                                   increase from week 19 year-to-date, when the deliveries per
                                   hour percentage exceeded the same period last year
                                   percentage by 1.29 percent.13

                                   Further, area officials had certified 11 percent (12 of 109)14
                                   of their rural units. During FY 2006, week 34 year-to-date,
                                   rural delivery total actual workhours exceeded standard
                                   workhours by 6.27 percent. This was a decrease from week
                                   19 year-to-date, when the actual hours exceeded the
                                   standard hours by 8.51 percent.

                                   Finally, area officials conducted Function 4 Business
                                   Reviews at 39 percent (22 of 57) of their planned

11
   The area conducted a leadership meeting for all Executive Administration and Salary managers in city and rural
delivery and Function 4 operations. In addition, the SOP were placed on the area’s website.
12
   This data is current as of May 2006.
13
   We are planning a future review on city carrier street performance.
14
   This data is current as of May 2006.



                                                         5
Delivery and Retail Standard Operating Procedures –                                      DR-MA-07-001
 Capital Metro Area


                                      locations.15 During FY 2006, week 34 year-to-date,
                                      Function 4 total earned hour variance was 610,772
                                      workhours. This was an increase from week 19 year-
                                      to-date when the earned hour variance was 317,834
                                      workhours. During the same period, the window staffing
                                      efficiency for week 34 year-to-date was 74.8 percent. This
                                      was a decrease from week 19 year-to-date when the
                                      window staffing efficiency was 76.6 percent.

                                      Based on our review of the city and rural delivery and
                                      Function 4 SOP, the Capital Metro Area implemented each
                                      component of the SOP except for AMSOP, Delivery Point
                                      Sequencing (DPS), matching workhours to workload,
                                      RDSOP, and Retail Data Mart Window Operations Survey
                                      (RDM WOS). (See Appendix B.) Officials implemented
                                      corrective actions to improve the AMSOP, DPS and RDSOP
                                      components during our review.

                                      Unit officials did not always adhere to policies to adequately
                                      match workhours to workload. As a result, unit officials’
                                      ability to monitor carrier street performance and customer
                                      service issues may be impacted. In addition, supervisors
                                      did not effectively consult with carriers and correct their
                                      performance issues to better manage overtime hours.
                                      Finally, supervisors were unable to determine whether the
                                      volume for parcels and accountable packages increased or
                                      decreased each day on a carrier’s route.

                                      In addition, the RDM WOS component needs improvement
                                      because unit officials were not using the RDM WOS to
                                      determine the staff needed to manage retail window
                                      operations. As a result, unit management cannot
                                      adequately schedule window coverage to meet customer
                                      demands, and area and district officials cannot establish
                                      realistic annual work budget goals at the area and district
                                      levels.

                                      Finally, area officials were continuing to address the
                                      challenges associated with the “vital few” performers, which
                                      include developing action steps for units identified as “vital
                                      few.”




15
     This data is current as of May 2006.



                                                       6
Delivery and Retail Standard Operating Procedures –                                 DR-MA-07-001
 Capital Metro Area




 Morning Standard               Although the Capital Metro Area implemented the SOP, the
 Operating                      four delivery and retail units reviewed in the Baltimore and
 Procedures                     Capital Districts have not been certified under AMSOP.

                                The Capital District has 21 delivery and retail units that met
                                the FY 2006 AMSOP certification criteria. As of July 2006,
                                only one of the 21 units passed the AMSOP certification
                                audit and was AMSOP certified. The remaining units did
                                not pass the audits because they did not match workhours
                                to workload; properly measure mail volume; or accurately
                                record clock rings. Also, delivery and retail units did not
                                meet certification requirements because they were
                                classified as historical buildings, which restricted
                                modifications to meet floor plan requirements. Further,
                                delivery and retail units did not always complete Postal
                                Service (PS) Forms, 1017-B, Unauthorized Overtime
                                Record, and PS Form 3996, Carrier — Auxiliary Control.

                                The Baltimore District has 20 delivery and retail units that
                                met the FY 2006 AMSOP certification criteria. As of
                                July 2006, only two of the 20 facilities were AMSOP
                                certified. The remaining units did not pass AMSOP
                                certification audits because of the physical layout of some of
                                the older buildings, restrictions placed on making structural
                                changes to historic buildings, and some resistance to
                                change on the part of managers and carriers. In addition,
                                the units could not meet the standards set for the
                                performance measures.

                                AMSOP was implemented nationally during FY 2005 for city
                                delivery units to standardize daily city carrier functions to
                                align actual workhours to base workhours. The FY 2006
                                goal is that all level 22 and above DOIS sites become
                                AMSOP certified by September 30, 2006. In order to have
                                an effective AMSOP process, officials must work jointly to
                                create and establish procedures for daily commitments
                                towards each other’s success. The expectation is that “vital
                                few” units will develop area approved action plans for
                                improvement to avoid being on the “vital few” list the next
                                quarter and to help them achieve certification status.

                                Capital Metro Area and district officials developed a monthly
                                tracking system to monitor the AMSOP certification process




                                                      7
Delivery and Retail Standard Operating Procedures –                                DR-MA-07-001
 Capital Metro Area



                                and to schedule re-audits for those units that had not
                                passed the certification audit to meet the FY 2006 goals.

                                As a result of these conditions, the Postal Service goal of
                                improving units’ efficiency in an evaluated workload
                                environment and alignment of actual to standard hours
                                could be adversely impacted for units not certified. Since
                                officials implemented action to address AMSOP
                                certification, we are not making any recommendations.




                                                      8
Delivery and Retail Standard Operating Procedures –                                                    DR-MA-07-001
 Capital Metro Area




 Delivery Point                     The Capital Metro Area did not achieve the national average
 Sequencing                         for DPS mail. Their FY 2005 DPS score was an average of
                                    71 percent, which is 6 percent below the national average.16
                                    With the Postal Service continuing to have delivery growth,
                                    an increase in DPS letters is essential to decreasing cased
                                    letter volume and, therefore, time spent by the carriers in
                                    the office. As shown in Table 1, nationally, the DPS
                                    percentage is approximately 77 percent, with some areas
                                    achieving DPS percentages in the 80s.

                                    DPS is the process of getting barcoded mail into the
                                    carrier’s walk sequence so the carrier can deliver it without
                                    manual sorting before going to the street. The goal of DPS
                                    is to improve efficiency and thus reduce costs. Increasing
                                    DPS letters percentage equates to decreasing cased letter
                                    volume and time spent by the carriers in the office.

                                            Table 1. Average Delivery Point Sequencing
                                                      Percentages for FY 2005
                                                                                     Actual DPS%
                                                                Area                End of FY 2005
                                                    Western                               82
                                                    Northeast                             82
                                                    Southwest                             80
                                                    Southeast                             79
                                                    Pacific                               76
                                                    Great Lakes                           76
                                                    Eastern                               75
                                                    New York Metro                        72
                                                    Capital Metro Area                    71

                                                    National                              77

                                             Source: Information provided by Postal Service Headquarters officials

                                    Capital Metro Area officials implemented corrective actions
                                    to improve their DPS scores, which include establishment of
                                    a cross-functional DPS team at the area level and in each
                                    district. The DPS teams consist of officials from the Plant,
                                    Customer Service, Address Management Systems,
                                    Marketing, and the district office. The DPS teams’
                                    responsibilities include creating the sort programs and
                                    updates for use on barcode sorters and monitoring the edit

16
  We are planning a future audit that will incorporate DPS percentages to identify opportunities to increase revenue,
reduce costs, and improve customer service.




                                                          9
Delivery and Retail Standard Operating Procedures –                             DR-MA-07-001
 Capital Metro Area


                                book submission process. Since officials implemented
                                corrective action to improve DPS scores, we are not making
                                any recommendations.




                                                      10
Delivery and Retail Standard Operating Procedures –                                  DR-MA-07-001
 Capital Metro Area




 Matching Workhours             Delivery and retail unit officials did not always adhere to
 to Workload                    policies to adequately match workhours to workload. Unit
                                officials stated this occurred because:

                                    •   They did not always remember to update Managed
                                        Service Points (MSP) base information when route
                                        changes occurred. We reviewed the base MSP
                                        information for all routes at the four delivery units
                                        sampled and identified 72 of 113 routes where office
                                        or street times had excessive interval times or were
                                        out of sequence.

                                    •   They did not always complete PS Forms 1017B. The
                                        sampled delivery units in the Capital District had
                                        current PS Forms 1017-B; however, unit officials did
                                        not consistently use the form. In addition, they did
                                        not cite corrective actions on the forms. Supervisors
                                        at the sample delivery units in the Baltimore District
                                        did not use PS Form 1017-B to record unauthorized
                                        overtime occurrences.

                                    •   They often approved time based on knowledge of the
                                        route and what they thought was reasonable for
                                        parcels and accountable mail rather than using
                                        information from the last route inspection in DOIS.
                                        The sampled delivery units did not keep route base
                                        information readily available for parcels and
                                        accountable packages. The XXXXXXXX Post Office
                                        obtained a listing of base parcels for each route but
                                        did not have a column for base accountable
                                        packages. However, the other sampled delivery
                                        units did not obtain a listing. Delivery and retail unit
                                        officials stated adding accountable mail to the listing
                                        of base parcels was useful because this data is
                                        critical to knowing whether the volume of these items
                                        increases or decreases each day on a carrier’s route.

                                The delivery unit supervisor’s primary responsibility is to
                                match workhours to workload. All other delivery unit
                                management personnel must assist in this effort by filtering
                                out any duties that do not support the supervisor’s primary
                                responsibility. Supervisors must concentrate on ensuring
                                that all workload is properly assessed and the tools used
                                are accurate. Unit managers must play an active role in


                                                      11
Delivery and Retail Standard Operating Procedures –                                DR-MA-07-001
 Capital Metro Area


                                leading, managing, and coaching daily unit operations. The
                                carriers’ first hour of casing must be uninterrupted,
                                therefore, the supervisor must assess the workload and
                                insure that mail presentation is completed prior to carriers
                                reporting.

                                As a result, unit officials’ ability to monitor carrier street
                                performance and customer service issues may be impacted.
                                In addition, supervisors cannot effectively consult with
                                carriers and correct their performance issues to better
                                manage overtime hours. Finally, supervisors are unable to
                                accurately determine whether the volume for parcels and
                                accountable packages increases or decreases each day on
                                a carrier’s route.

 Recommendation                 We recommend the Vice President, Capital Metro Area,
                                direct the Managers, Capital and Baltimore Districts, to
                                ensure that unit officials:

                                1. Update route base information when changes occur.

 Management’s                   Capital District management agreed with our finding and
 Comments                       recommendation. They stated that the effective use of
                                DOIS performance reports is a major tool necessary for
                                monitoring and improving delivery performance as well as
                                delivery staff maintaining a full understanding of
                                components used to determine performance targets.
                                Management also stated this effort will be enhanced
                                through daily interaction with postmasters, area managers,
                                and managers, Post Office Operations, as it relates to the
                                nonperforming delivery units that show negative trends of
                                exceeding projected workhours. In addition, management
                                stated they expect that DOIS performance reports will be
                                used to drive the right behavior in terms of managing
                                available workhours against available workload.

                                Baltimore District management agreed with our finding and
                                recommendation. Baltimore District management stated
                                that all postmasters, managers, and supervisors have been
                                trained on the proper procedures to ensure that base data is
                                maintained and accurate in the DOIS. Management also
                                stated they will reissue a letter signed by all postmasters,




                                                      12
Delivery and Retail Standard Operating Procedures –                                DR-MA-07-001
 Capital Metro Area



                                managers, and supervisors, stating that they are aware of
                                these processes and the processes are in place in their
                                units.

 Recommendation                 We recommend the Vice President, Capital Metro Area,
                                direct the Managers, Capital and Baltimore Districts, to
                                ensure that unit officials:

                                2. Complete Postal Service Forms 1017-B, Unauthorized
                                   Overtime Record, to document unauthorized overtime
                                   and take corrective actions.

 Management’s                   Capital District management agreed with our finding and
 Comments                       recommendation. They stated proper usage of Postal
                                Service related control forms is an essential tool needed to
                                achieve results. PS Form 1017B, Unauthorized Use of
                                Overtime; PS Form 3996, Auxiliary Assistance; and PS
                                Form 1813, Carrier Late Leaving and Returning Report, are
                                a few examples of documents that require review and
                                completion on a daily basis. Management also stated these
                                types of reports will be reviewed during on-site reviews
                                conducted by senior management and operations staff.
                                Finally, management stated all units were expected to
                                comply with managing workhours based upon available
                                workload by October 1, 2006.

                                Baltimore District management agreed with our finding and
                                recommendation, and stated corrective action is being taken
                                at most of their delivery units. Management also stated this
                                is a process that all delivery units should be performing. In
                                addition, management stated they will ensure that these
                                procedures are being followed in every delivery unit.

 Recommendation                 3. Provide current and readily available route base
                                   information for parcels and accountable mail.

 Management’s                   Capital District management agreed with our finding and
 Comments                       recommendation. Capital District management stated the
                                delivery unit’s base route information is a direct download




                                                      13
Delivery and Retail Standard Operating Procedures –                               DR-MA-07-001
 Capital Metro Area



                                from the most recent route inspection, which included the
                                adjusted base route parcels and accountables.
                                Management also stated the district’s operations will reissue
                                the steps necessary for delivery units to retrieve this
                                information from DOIS by October 1, 2006.

                                Baltimore District management agreed with our finding and
                                recommendation. They stated these procedures will be
                                monitored when the route base data is updated.
                                Management also stated all postmasters, managers, and
                                supervisors have been trained on the proper procedures to
                                ensure that base data is maintained and accurate in the
                                DOIS. In addition, management stated they will issue a
                                letter signed by all postmasters, managers, and supervisors,
                                stating that they are aware of these processes and the
                                processes are in place in their units.

 Evaluation of                  Management’s comments are responsive to the finding and
 Management’s                   recommendations 1 through 3. Management’s actions
 Comments                       taken or planned should correct the issues identified in the
                                finding.




                                                      14
Delivery and Retail Standard Operating Procedures –                                  DR-MA-07-001
 Capital Metro Area




 Rural Delivery                 Although Baltimore District officials had identified the “vital
 Standard Operating             few” units, they had not identified delivery and retail units
 Procedures                     with 10 or more routes because they were preparing for the
                                National Rural Mail Count that began on February 24, 2006.
                                Baltimore District officials indicated that they realize
                                effective implementation of the standardized rural delivery
                                operating procedures will more closely align actual to
                                standard hours, reduce overtime, and reduce auxiliary
                                assistance hours.

                                Postal Service Headquarters officials established RDSOP
                                reviews as a national requirement for FY 2006, to help
                                create a consistent understanding of the requirements
                                necessary for well-run, highly efficient rural delivery
                                operations. The reviews focus on improving efficiency in an
                                evaluated workload environment. The RDSOP required
                                75 percent of all units identified as “vital few” and units with
                                10 or more rural routes to achieve certification status by
                                September 30, 2006. Units with less than 10 rural routes
                                and not part of the “vital few” will complete a self-review.

                                To improve performance, Baltimore District officials have
                                identified all units with 10 or more rural routes and they
                                have begun conducting their certification audits. In addition,
                                district officials were tracking and monitoring the results to
                                ensure that 75 percent of these units achieved certification
                                status by September 30, 2006. Since officials implemented
                                corrective action during the review, we are not making any
                                recommendations.




                                                      15
Delivery and Retail Standard Operating Procedures –                                                         DR-MA-07-001
 Capital Metro Area




 Retail Data Mart                    Delivery and retail unit officials were not using the RDM
 Window Operations                   WOS to determine the proper staff scheduling needed to
 Survey                              manage retail window operations. This occurred because
                                     unit officials received retail SOPs from district officials
                                     mandating that they place a sales and services associate
                                     at every window for full coverage during peak hours of
                                     11:00 a.m. through 2:00 p.m. regardless of the number of
                                     customers in the retail facilities. In addition, unit officials
                                     stated they were over staffing to meet the wait-time-in-line
                                     requirement in the event a Mystery Shopper17 came to the
                                     facility.

                                     The RDM WOS tool is used during standardized Function 4
                                     on-site reviews at retail postal units. The tool provides
                                     information on the retail workload based on the number and
                                     types of transactions conducted at the retail counter.18
                                     Postal Service officials convert the retail workload
                                     information to earned workhour data. Also, the results
                                     assist management in determining productivity levels and
                                     the staff needed to meet customer demands and attain
                                     established annual workhour budget goals. The RDM WOS
                                     provides information on ranking opportunity in retail, based
                                     on actual performance versus earned workhours.19

                                     As a result, unit management cannot adequately schedule
                                     window coverage to meet customer demands and area and
                                     district officials cannot establish realistic annual work budget
                                     goals at the area and district levels.

 Recommendation                      We recommend the Vice President, Capital Metro Area,
                                     direct the Managers, Capital and Baltimore Districts, to:

                                     4. Ensure that unit officials use the Retail Data Mart
                                        Window Operations Survey to determine staffing
                                        required to meet customer demands during peak hours.




17
   The Mystery Shopper program is a diagnostic tool that provides timely and reliable data, which can be used to
identify trends and retail process improvement opportunities.
18
   The types of transactions include Priority and Express Mail®, stamp and money order purchases, passports, and
mailboxes. Postmasters assign mobile units, at their discretion, to retail postal units in order to provide limited retail
activity in remote locations such as retirement homes and community centers.
19
   The rankings are based on the highest hours of variance between reported and earned hours.



                                                            16
Delivery and Retail Standard Operating Procedures –                                 DR-MA-07-001
 Capital Metro Area




 Management’s                   Capital District management agreed with our finding and
 Comments                       recommendation. They stated training was provided to all
                                supervisors in Customer Services with retail responsibility.
                                Management also stated they expect managers and
                                postmasters to take a more active role in promoting proper
                                staffing of retail units and capturing identified cost savings
                                from on-site reviews. In addition, management stated area
                                managers and managers, Post Office Operations, must
                                ensure RDM WOS implementation and follow-up to ensure
                                compliance. Finally, management stated the Window
                                Operations Survey Exception Report will be used to identify
                                “vital few” offices for the first pay period of FY 2007, and
                                these offices will be required to submit action plans for
                                improvement by November 1, 2006.

                                Baltimore District management agreed with our finding and
                                recommendation, and stated training has been provided on
                                the proper utilization of RDM WOS. Management also
                                stated that sign-off sheets will be provided to the district
                                showing that every postmaster, manager, and supervisor
                                has been trained on RDM WOS and is properly using the
                                tool. In addition, management stated Operations Programs
                                Support will be conducting office reviews to ensure that
                                these recommendations are being followed.

 Evaluation of                  Management’s comments are responsive to the finding and
 Management’s                   recommendation, and their actions taken or planned should
 Comments                       correct the issues identified in the finding.




                                                      17
Delivery and Retail Standard Operating Procedures –                                 DR-MA-07-001
 Capital Metro Area




 “Vital Few” Lists              Area officials are continuing to address the challenges
                                associated with the “vital few” performers, which include
                                developing action steps for units identified as “vital few.” To
                                address performance issues, Capital Metro Area officials
                                tasked all districts with assigning a Labor Distribution Code
                                45 improvement coordinator in an effort to improve retail
                                efficiency. Area officials also monitor and track
                                performance by reviewing DOIS performance reports on a
                                weekly basis to identify underperforming units. When
                                underperforming units are identified, area officials send an
                                email to district officials directing them to address
                                performance issues with unit officials. Finally, district
                                officials conduct weekly teleconferences with those units
                                identified on the “vital few” list to improve performance.




                                                      18
Delivery and Retail Standard Operating Procedures –                             DR-MA-07-001
 Capital Metro Area




                                           APPENDIX A

                                PRIOR AUDIT COVERAGE
City Letter Carrier Operations – Greater Indiana District (Report Number DR-AR- 06-
003, dated March 28, 2006). The report outlined opportunities to improve the
management of city letter carrier operations in the Greater Indiana District. Delivery
facility supervisors and managers did not adequately match workhours with workload.
We projected the sample results for a total of 68,177 unjustified hours over the 5-month
period from January 1 through May 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $765,487). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use Managed Service Points (MSP) to monitor city letter carriers’ street
time to correct negative trends, or properly document letter carriers’ unauthorized
overtime occurrences and take corrective action.

AM Standard Operating Procedures - Fiscal Year 2005 Financial Installation Audit
(Report Number FF-AR-06-096, dated March 20, 2006). The report outlined that at
28 of the 36 post offices, stations, and branches where AMSOP are applicable,
management had begun implementation. Of those, 11 had obtained certification, and
17 were at various stages of certification. At the time of our work, eight units had not
begun implementation. Several factors contributed to units not being certified. These
factors included issues with the mail arrival agreement with the processing and
distribution plant, posting and following the AMSOP, and Function 4 activities. We
made no recommendations in this report to management.

City Letter Carrier Operations – Detroit District (Report Number DR-AR-06-002, dated
February 8, 2006). The report outlined opportunities to improve the management of city
letter carrier operations in the Detroit District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 59,208 unjustified hours over the 5-month period from
January 1 through May 31, 2005, that were not supported by volume or workload (total
unrecoverable costs of $723,586). We also noted that supervisors and managers did
not always view DOIS reports in a timely manner to manage operations, consistently
use MSP to monitor city letter carriers’ street time to correct negative trends, or properly
document letter carriers’ unauthorized overtime occurrences and take corrective action.

Address Management Systems – Southwest Area – Rio Grande District (Report
Number DR-AR-06-001, dated January 25, 2006). The report outlined opportunities to
improve the quality of Address Management System (AMS) data and put $988,945 of
processing and delivery costs over the next 10 years to better use. Management
agreed with our findings and recommendations and the $988,945 in funds put to better
use.


                                                      19
Delivery and Retail Standard Operating Procedures –                             DR-MA-07-001
 Capital Metro Area



City Letter Carrier Operations – Chicago District (Report Number DR-AR-05-019, dated
September 29, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Chicago District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 78,248 unjustified hours over the 5-month period from
September 1, 2004, through January 31, 2005, that were not supported by volume or
workload (total unrecoverable costs of $2,020,200). We also noted supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Santa Ana District (Report Number DR-AR-05-013,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the Santa Ana District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 83,864 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $2,127,852). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – San Diego District (Report Number DR-AR-05- 014,
dated August 8, 2005). The report outlined opportunities to improve the management of
city letter carrier operations in the San Diego District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected the
sample results for a total of 53,835 unjustified hours over the 5-month period from
May 1 through September 30, 2004, that were not supported by volume or workload
(total unrecoverable costs of $1,423,935). We also noted that supervisors and
managers did not always view DOIS reports in a timely manner to manage operations,
consistently use MSP to monitor city letter carriers’ street time to correct negative
trends, or properly document letter carriers’ unauthorized overtime occurrences and
take corrective action.

City Letter Carrier Operations – Rio Grande District (Report Number DR-AR-05-009,
dated December 2, 2004). The report outlined opportunities to improve management of
city letter carrier operations in the Rio Grande District. Delivery facility supervisors and
managers did not adequately match workhours with workload. We projected that the
three delivery facilities had 5,318 unjustified hours (at an estimated cost of $193,947)
not supported by volume or workload over a 5-month period. We reported 2,543 of the
unjustified hours – or $92,726 – as unrecoverable costs. We also noted that
supervisors and managers did not effectively use DOIS to manage daily operations, and



                                                      20
Delivery and Retail Standard Operating Procedures –                              DR-MA-07-001
 Capital Metro Area


delivery unit supervisors and managers did not consistently perform street management
or effectively use MSP to monitor city letter carriers’ street time to correct negative
trends.

Function 4 – Customer Service Operations (Report Number DR-AR-04-014, dated
September 30, 2004). The Postal Service can improve the effectiveness and efficiency
of the Function 4 customer service process in meeting or exceeding its program goals
of monitoring and measuring the potential savings of customer service operations.
Specifically, Postal Service managers could improve customer service operations by
fully utilizing the standardized Function 4 reviews and sharing proven practices.

City Letter Carrier Office Preparation in the Dallas District (Report Number DR-AR-04-
005, dated July 26, 2004). The report stated that opportunities exist to improve Dallas
District city letter carrier office preparation operations. Specifically, impediments existed
that adversely affected delivery supervisors’ and managers’ ability to adequately match
workhours with workload. In addition, city letter carriers’ work activities were not always
appropriate to ensure they departed the delivery unit as scheduled. Further,
supervisors/Managers did not use the DOIS to assist in managing office activities.

City Letter Carrier Street Management and Route Inspections in the Fort Worth District
(Report Number DR-AR-04-001, dated June 22, 2004). The report stated that street
management and route inspections were generally efficient and effective at the
XXXXXXX and XXXXXXXXX Stations. Delivery unit supervisors monitored city delivery
carrier’s street time to conserve workhours by performing at least the minimum number
of required street observations. However, while a route inspection was conducted at
the XXXXXXX Station delivery unit, post route adjustment procedures were not followed
to maintain routes at 8 hours.

City Carrier Productivity - Letter Carrier Delays in the Baltimore District (Report Number
TD-AR-03-011, dated July 28, 2003). The report stated that early reporting wasted
carriers’ morning time, and exposed the Baltimore District to potential unnecessary
evening overtime costs. It was noted supervisors and managers were not using DOIS
to manage carrier schedules, and consequently, could not use the system to evaluate
carrier scheduling or take corrective action.




                                                      21
Delivery and Retail Standard Operating Procedures –                                               DR-MA-07-001
 Capital Metro Area



                            APPENDIX B
              CAPITAL METRO AREA IMPLEMENTATION OF
       DELIVERY AND RETAIL STANDARD OPERATING PROCEDURES
                                           Capital Metro
                                           Area Officials           Dates        SOP Areas
                                           Implemented               SOP            for
                         SOP Areas          Procedures           Implemented   Improvement20
                     City Delivery
                     AMSOP                        Yes              10/2005          No*
                     Integrated
                     Operations                   Yes              10/2005          No
                     Delivery Point
                     Sequencing                   Yes              10/2005          No*
                     Collection Point
                     Management                   Yes              10/2005          No
                     Scanning
                     Performance                  Yes              10/2005          No
                     Matching
                     Workhours to
                     Workload                     Yes              10/2005          Yes
                     Volume Recording             Yes              10/2005          No
                     Route Evaluations
                     and Adjustments              Yes              10/2005          No
                     “Vital Few” Service
                     Improvements                 Yes              10/2005          No
                     Rural Delivery
                     RDSOP                        Yes              10/2005          No*
                     Growth and
                     Delivery Point
                     Management                   Yes              10/2005          No
                     Function 4
                     Function 4
                     Business Review              Yes              10/2005          No
                     RDM WOS                      Yes              10/2005          Yes

                    * Corrective action was taken during the review.

                    Source: Information provided by Postal Service Capital Metro Area officials




20
     OIG determination based on review results.



                                                            22
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                      23
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      24
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      25
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      26
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      27
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      28
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      29
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      30
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      31
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      32
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      33
Delivery and Retail Standard Operating Procedures –        DR-MA-07-001
 Capital Metro Area




                                                      34
